PLATINUM HERITAGE CREDIT CARD AGREEMENT
(Private Banking)
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

2.99%

APR for Balance
Transfers

2.99% Intro fixed APR for your first eight billing cycles following the opening of your account for
balance transfers made within thirty days of account opening.

Intro fixed APR for your first eight billing cycles following the opening of your account.

After that, the APR will be
Prime Rate.

11.24%. This APR will vary with the market based on the U.S.

After that, the APR will be 11.24%. This APR will vary with the market based on the U.S. Prime
Rate.
APR for Cash Advances

18.00% Fixed

Penalty APR and When
it Applies

18.00% Fixed
This APR may be applied to your Credit Card account if you make a late payment.
How Long Will the Penalty APR Apply?: This Penalty APR will apply until you make six
consecutive Minimum Payments when due.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you
interest on Purchases if you pay your entire New Balance by the Payment Due Date each month.
We will begin charging interest on Cash Advances on the transaction date.

Paying Interest

Minimum Interest
Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$50
(we reserve the right to waive the fee so long as you remain a Private Banking customer)

Transaction Fees
• Foreign Transaction

3% of the U.S. dollar amount of any Purchase or Cash Advance made in a foreign currency

• Balance Transfer

Either $5 or 5% of the amount of each transfer, whichever is greater

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater

Penalty Fees
• Late Payment

Up to $40

• Returned Payment

Up to $40

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new Purchases).”
See the paragraph of this Agreement titled “Computing Your Interest Charge” for more details.
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in this
Agreement.
SEE NEXT PAGE FOR IMPORTANT INFORMATION ABOUT YOUR ACCOUNT.

Private Banking Plat

Page 1 of 5

Rev. Date 06/01/20

This Platinum Card Agreement (“Agreement”) covers your Private
Banking Platinum Card account (“Credit Card account”) you have with
us. By requesting or accepting a Credit Card account, you agree to be
bound by all the terms of this Agreement. In this Agreement, the words
“you” or “your” mean everyone who has requested or accepted a Credit
Card account with us. The words “we,” “us,” “our,” or “Bank” mean First
Hawaiian Bank.
1. Use. Your Platinum Mastercard® and Platinum Visa® card
(individually or collectively called “Card”) may be used as a credit card
for purchases of goods or services from participating merchants
(“Purchases”) or to get Cash Advances from us or any other financial
institution displaying the “Mastercard” or “Visa” logo, or to purchase
certain items such as traveler's cheques, foreign currency, money
orders, wire transfers, lottery tickets, or (except as noted below) funds to
be used for wagers or gambling (all of which are collectively referred to
as “Cash Advances”) up to your Credit Limit.
You can also obtain a Cash Advance by writing a special check
(“Convenience Check”), which accesses the available Cash Advance
limit on your Credit Card account. Convenience Checks are available
from us upon request, or we may periodically provide Convenience
Checks as a special promotion.
If you use a Convenience Check
available upon request, all of the terms of this Agreement applicable to
Cash Advances will apply to the Convenience Check. If we offer a
special promotion, we will explain to you any special terms of the use of
the Convenience Checks. The Cash Advance from a Convenience
Check will be posted to your Credit Card account when the Convenience
Check reaches us. The Convenience Check fee described on page 1 of
this Agreement will be imposed on each Convenience Check you write.
If you stop payment on a Convenience Check, your Credit Card account
will be charged the fee shown in the paragraph of this Agreement called
“Other Fees."
From time to time we may offer a special balance transfer
promotion, which is an opportunity to make a Cash Advance to pay the
balance on another loan you have, by transferring the other loan balance
to your Credit Card account. If we offer a balance transfer promotion, at
that time we will explain to you the terms of the promotion. Unless we
tell you otherwise, all the references in this Agreement to balance
transfers will apply to any special balance transfer promotion offered.
Your Card may also be used in certain automated terminals to gain
access to your checking, savings, and Credit Card accounts.
Your Card and Credit Card account may be used only for valid and
lawful purposes. You may not use your Card (i) to make Purchases or
obtain Cash Advances for any illegal transaction, or (ii) for any internet
or online gambling transactions. Transactions for online or internet
gambling will not be approved. If you use your Card for any illegal or
prohibited transaction, this Agreement also applies to such transaction
and you agree to pay any and all amounts related to such transaction
pursuant to the terms of this Agreement. We may, in our sole discretion,
restrict the use of or terminate your Card if we notice excessive use of
your Card or other suspicious activities or if we reasonably believe the
Card is or has been used for one or more illegal or prohibited
transactions.
We have no responsibility for the failure of any machine, merchant,
financial institution, or any other party to honor your Card. If you use, or
allow someone else to use the Card or Credit Card account for any other
purpose, you will be responsible for such use and may be required to
reimburse us for all amounts or expenses we pay as a result of such
use.
2. Credit Limit. We will notify you of your Credit Limit for each Credit
Card account you have with us, which is the total amount of credit we
agree to extend to you at any one time. Your Credit Limit will also
include a separate limit for Cash Advances. Your Credit Limit and Cash
Advance limit are listed on your monthly periodic statement. Your
available Credit Limit is the amount of your total Credit Limit minus the
sum of your New Balance, any authorized Purchases, Cash Advances
and Balance Transfers that have not posted to your Account, and any
payments that have not cleared. You may apply to increase your Credit
Limit, and we reserve the right to lower it without prior notice to you.
You agree that you will not let your total charges, including
Purchases, Cash Advances, FINANCE CHARGES (including but not
limited to interest, Foreign Transaction Fees, Cash Advance, Balance
Transfer and Convenience Check Transaction Fees), late charges,
membership fees, and other fees that may be due, exceed your Credit
Limit. If you exceed your Credit Limit, you will be considered to have
exceeded your Credit Limit for all purposes of the Agreement, and we
may reduce the available Credit Limit any other Credit Card account you
have with us until such time as the excess amount is paid.
You are responsible for keeping track of your New Balance and your
available Credit Limit. We may but are not required to approve
transactions above your Credit Limit up to a certain percentage of your
Credit Limit which we establish from time to time for you based on our
established evaluation criteria. If we do approve those transactions,
those transactions will not increase your Credit Limit.
You are
responsible for repaying all over-limit amounts and FINANCE CHARGES
will be assessed on those amounts.
For security reasons, we may limit the number or amount of
Purchase, Cash Advance and/or Convenience Check transactions that
may be accomplished with your Card or Credit Card account. We may
also limit authorizations to make Purchases or obtain Cash Advances if
we consider it necessary to verify collection of Payments received on
your Credit Card account.
3. Temporary Reduction of Credit Limit. Merchants, such as car
rental companies and hotels, may request prior credit approval from us
for an estimated amount of your Purchases, even if you ultimately do not
pay by credit. If our approval is granted, your available Credit Limit will
temporarily be reduced by the amount authorized by us. If you do not
ultimately use your Credit Card account to pay for your Purchases or if
Private Banking Plat

the actual amount of Purchases posted to your Credit Card account varies
from the estimated amount approved by us, it is the responsibility of the
merchant, not us, to cancel the prior credit approval based on the estimated
amount. The failure of the merchant to cancel a prior credit approval may
result in a temporary reduction of your available Credit Limit, but will not
increase the amount you owe us under this Agreement.
4. Agreement to Pay. When you use your Card or Credit Card account, or
when you permit anyone to use it, you agree to pay the amount of any and all
Purchases or Cash Advances (including Purchases and/or Cash Advances
which may have been made in violation of this Agreement), FINANCE
CHARGES (including but not limited to interest, Foreign Transaction Fees,
Cash Advance, Balance Transfer and Convenience Check Transaction Fees),
late charges, membership fees, over-limit fees, and other fees that may
become due as shown on the periodic statement. If we accept a payment from
you in excess of your outstanding balance, your available Credit Limit will not
be increased by the amount of the overpayment nor will we be required to
authorize transactions for an amount in excess of your Credit Limit.
5. Periodic Statement. Each month we will send you a periodic statement
for each Credit Card account you have with us covering the previous billing
period. We may not send you a statement if your balance is zero and there
were no transactions during the billing period. The statement will have a
“Statement Closing Date” and a “Payment Due Date,” and will show, among
other things, your “Previous Balance,” your “New Balance,” and your minimum
monthly payment, which will be shown as the “Minimum Payment Due.” The
periodic statement is part of this Agreement. If you choose to receive periodic
statements electronically, the statements will be deemed to have been sent to
you when they are first made available for you to view online.
6. Payment. You must make a payment by the “Payment Due Date.” You
have two choices: You may pay the entire “New Balance” or you may pay in
installments by paying at least the “Minimum Payment Due.” All payments
must be made in the lawful money of the United States of America. When
your payment is properly received, we will apply your Minimum Payment as
permitted by law. If you make a payment in excess of the Minimum Payment,
the excess amount will be applied first to your balance with the highest
ANNUAL PERCENTAGE RATE. Any remaining amount of your excess
payment will be applied to the balance with the next highest ANNUAL
PERCENTAGE RATE, and so on. Upon confirmation of collection, we will add
any Cash Advances or Purchases repaid to your available Credit Limit;
however, in the event of payment by personal or business check, we may
delay replenishing your available Credit Limit until your check clears. This
means that you may not have access to all or part of the Credit Limit until we
have collected the funds by which you have made payment on the account. If
payments are made by certified or cashier’s check, electronic funds transfer,
automated clearing house, or other means that provide immediate collected
funds, we may waive the right to delay restoration of the Credit Limit.
Payments must be mailed to the BankCard Center address specified in
your statement. Payments must reach our BankCard Center by 5:00 p.m. HST
during our regular business days in order to be credited on that date.
Payments received after the cutoff time of 5:00 p.m. HST will be credited as of
the following business day. If you make a payment in person at our branches
with the assistance of a branch employee prior to regular closing time for the
branch, the payment will be credited as of the date received. If you make a
payment by any means other than by mail to our BankCard Center (including
payments made by using FHB Online), crediting of your payment may be
delayed.
From time to time, we may let you skip or reduce one or more monthly
payments during a year and/or we may temporarily reduce or eliminate certain
FINANCE CHARGES on all or a portion of your Credit Card account balance
or offer you other special terms. If we do, we will advise you of the scope and
duration of the applicable skip or promotional feature. When the skip or
promotional feature ends, your regular rates and all the terms of the
Agreement will resume.
7. Minimum Payment–Late Charge. At least the amount of the “Minimum
Payment Due” must be received by us by the “Payment Due Date.” If it is not,
we may apply the late charge shown on page 1 (if permitted by law), unless
such charge would result in an interest charge greater than the maximum
allowable by law, in which case we will only charge the maximum allowable
rate. The “Minimum Payment Due” will include the amount calculated by using
the table shown below, and will also include any amount past due on your
account. Your statement will include the past due amounts as part of the
“Minimum Payment Due.”
“New Balance”
$ 0.01 – $24.99
$25.00 or more

“Minimum Payment Due”
Entire “New Balance”
$25 or 3% of “New Balance”,
whichever is greater

8. When You Must Pay to Avoid Interest Charges. There may be different
treatments of interest charges for Purchases and Cash Advances, even
though they are computed the same way. You may avoid paying an interest
charge on Purchases if you pay the entire New Balance early enough to reach
us by the Payment Due Date. If we do not receive the entire New Balance by
the Payment Due Date, the interest charge will be charged on Purchases from
the date of the transaction. Interest charges on Cash Advances begin on the
transaction date of each Cash Advance and will be assessed even if your
entire New Balance is paid by the Payment Due Date.
9. Computing Your Interest Charge. We figure the interest charge on your
account by applying the periodic rate to the “Average Daily Balance” of
Purchases and “Average Daily Balance” of Cash Advances, including current
transactions.
a. Average Daily Balance. To get the “Average Daily Balance of
Purchases” we take the beginning balance of your Credit Card account
each day, add any new Purchases, and subtract any unpaid interest or
other finance charges, Cash Advances, payments, other credits that were
applied to Purchases, late charges, membership fees, over-limit fees, and
other fees. If you paid the Purchases balance in full by the Payment Due
Date in the previous billing cycle, in the current billing cycle we will credit
payments otherwise applicable to Purchases based on our allocation

Page 2 of 5

Rev. Date 06/01/20

method as of the first day of the current billing cycle. These
computations give us the Purchases daily balance. To get the
“Average Daily Balance of Cash Advances” we take the beginning
balance each day, add any new Cash Advances, and subtract any
unpaid interest or other finance charges, Purchases, payments,
other credits that were applied to Cash Advances, late charges,
membership fees, over-limit fees, and other fees. This gives us the
Cash Advances daily balance. Then we add up all of the Purchases
and Cash Advance daily balances for the billing period and divide
each total by the number of days in the billing period. This gives us
the “Average Daily Balances.”
b. Figuring the Interest Charge. We compute the interest charge
by multiplying these Average Daily Balances by the applicable Daily
Periodic Rate, and then we multiply the result by the number of days
in the billing period. To determine the Daily Periodic Rate, we divide
the ANNUAL PERCENTAGE RATE in effect for the billing period by
365. Your Credit Card account is made on a Variable Rate basis for
Purchases, and the ANNUAL PERCENTAGE RATE and Daily
Periodic Rate for Purchases are described in the paragraph of this
Agreement below called “Variable Rate.” The Daily Periodic Rate for
Cash Advances is a Fixed Rate of .0493%, which is equivalent to an
ANNUAL PERCENTAGE RATE of 18.00%.
c. Variable Rate. The initial ANNUAL PERCENTAGE RATE for
Purchases and transfers of account balances you have with another
creditor ("Balance Transfers") is a fixed promotional rate as shown
on page 1 of this Agreement and will remain in effect for your first
eight billing cycles following the opening of your account ("Initial Rate
Period"). The Daily Periodic Rate during the Initial Rate Period for
Purchases and Balance Transfers is .0082%. After the Initial Rate
Period, the Daily Periodic Rate for Purchases and Balance Transfers
based on the Current Index and Rate Spread described below will be
.0308% and the corresponding ANNUAL PERCENTAGE RATE will
be 11.24%.
After the Initial Rate Period, the ANNUAL
PERCENTAGE RATE for Purchases and Balance Transfers will
change to the current rate shown on page 1 of this Agreement. The
current Daily Periodic Rate for Purchases and Balance Transfers is
.0308% The Daily Periodic Rate and the corresponding ANNUAL
PERCENTAGE RATE may change (by increasing or decreasing) on
the first day of each of your billing cycles that begin in March, June,
September, and December. Each date on which the rate of interest
could change is called a “Change Date.” Changes will be based on
changes in the “Index.” The Index is the highest U.S. Prime Rate
published in the “Money Rates” section of The Wall Street Journal on
the last business day of the calendar month prior to the month in
which the Change Date occurs. The most recent Index is called the
“Current Index.” If the Index is no longer available, we will choose a
new Index based upon comparable information and will give you
notice of our choice. Your interest rate for Purchases is based on a
variable rate equal to the sum of the Current Index plus a “Rate
Spread” of 7.99 percentage points. (The Rate Spread is also called
the Margin.) Immediately before each Change Date we will
determine the new interest rate for Purchases by adding the Rate
Spread to the Current Index. For example, if the Current Index was
3.25% and the Rate Spread 7.99 percentage points, the ANNUAL
PERCENTAGE RATE would be 11.24% and by dividing this
percentage figure by 365, we would compute a Daily Periodic Rate
of .0308%. The new interest rate for Purchases will become effective
at the start of your first billing cycle after the Change Date. The
ANNUAL PERCENTAGE RATE will not exceed the maximum rate
permitted by law. The effect of any increase in the ANNUAL
PERCENTAGE RATE and the Daily Periodic Rate for Purchases
would be to increase the amount of interest you must pay and thus
increase your monthly payments.
d. Introductory and Promotional Rates. At our discretion, we
may offer you an introductory or promotional ANNUAL
PERCENTAGE RATE for your Credit Card account. For example,
we may offer you an introductory ANNUAL PERCENTAGE RATE for
Purchases when you open your Credit Card account, or a
promotional ANNUAL PERCENTAGE RATE for Balance Transfers.
The time period for which the introductory or promotional ANNUAL
PERCENTAGE RATE applies may be limited. Any introductory or
promotional ANNUAL PERCENTAGE RATE offer will be subject to
the terms of the offer and this Agreement, including but not limited to
the Penalty APR described in the paragraph of this Agreement called
“Default”. We will provide you with information on the offer, including
the time period the introductory or promotional ANNUAL
PERCENTAGE RATE is in effect in the documents that accompany
your Credit Card or in the materials we send you about the offer after
you receive your Credit Card.
e. Military Lending Act Disclosures. Federal law provides
important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and
his or her dependent may not exceed an annual percentage rate of
36 percent. This rate must include, as applicable to the credit
transaction or account; the costs associated with credit insurance
premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and
any participation fee charged (other than certain participation fees for
a credit card account). Additional oral disclosures are available at 1877-640-2337.
10. Minimum Interest Charge. If the interest charge for all balances on
your Credit Card account is less than $1.00, we will charge you the
Minimum Interest Charge shown on page 1. This charge is in lieu of any
interest charge.
Private Banking Plat

11. Foreign Transaction Fee. If you make a Purchase or Cash Advance in a
foreign currency, it will be billed to you in U.S. dollars. You will be billed the
foreign transaction fee for these Purchases and Cash Advances made in
foreign currency in the amount shown on page 1. This fee, which is a
FINANCE CHARGE, is not a foreign currency conversion charge and is not
based on our exchange cost.
12. Other Transaction Fees. We will charge your Credit Card account when
appropriate the transaction fees shown on page 1, each of which are
FINANCE CHARGES. Each of these fees will be added to your Credit Card
balance when charged.
13. Other Fees. You also agree to pay us the appropriate fees listed below
and shown on page 1, which may be amended from time to time by us. You
authorize us to charge your Credit Card account (or the account from which
you obtained money or information in the case of an automated terminal
transaction) for fees due to us. We reserve the right to waive these fees from
time to time. If we incur special expenses on your Credit Card account due to
a request made by you, we may also charge you for these expenses.
Automated Teller Machine (ATM) Transaction Fees
(For cards with ATM deposit account access)
At a First
At a Network
Hawaiian ATM
ATM
• Deposit Account Withdrawal
 Domestic
N/C
$3.00
 International
N/A
$5.00
• Balance Inquiry
N/C
$1.00
• Checking Account Statement
$1.50
N/A
Note: N/C = No Charge; N/A = Not Applicable; Domestic = at an ATM in
Canada, U.S. and its protectorates and territories, including Guam and the
Commonwealth of the Northern Mariana Islands (CNMI).
Payable at Time of Request
• Mastercard Temporary Replacement Card or Gold
Visa Temporary Replacement Card issued by
Mastercard International or Visa Travel Service Center.
Temporary card is good for approximately one month
and cannot be used in ATMs.
 Domestic Fee:
 International Fee:
• Emergency Cash Advance issued by Mastercard
International or Visa Travel Service Center is limited to
$1,000 or your available credit limit, whichever is less.
• Copy of Sales Draft
• Research Fee
• Statement Copy Fee
• Convenience Check Stop Payment Order/Return
Convenience Check Fee
• Listing in Combined Warning Bulletin Per Region

$ 95.00
$125.00
$ 50.00

$ 5.00
$ 20.00/hour
$ 5.00
$ 16.00
$ 10.00

Payable at Time of Delivery
• Replacement Card issued by First Hawaiian Bank
• Returned Payment Check (due to insufficient funds,
stop payment order on your check, etc.)

$ 20.00
Up to $35

14. Authorizing Transactions. We reserve the right to decline a transaction
on your account for any reason, including but not limited to operational
considerations, your account being in default, or we suspect fraudulent or
unlawful activity. We are not responsible for any losses incurred if a
transaction on your account is declined for any reason, either by us or a third
party, even if you have sufficient credit available.
15. Credit Insurance is Optional. If you choose to purchase credit insurance,
the premiums will be computed on the Average Daily Balance of Purchases
and Cash Advance, including finance and other charges, up to $5,000. The
cost for credit insurance is 65¢ per $100 of your average daily balance of
Purchases and Cash Advances. During months when you have no balances,
there is no charge. Credit insurance premiums will be added to your Credit
Card account as Purchases.
16. Annual Membership Fees. The annual membership fee for a Private
Banking Platinum Card account is shown on page 1. The fee will be charged
on a periodic statement shortly after you open your Credit Card account and
after that in the same month every year. We reserve the right to waive the fee.
17. Default. We may declare the entire balance for all Credit Card accounts
due and payable at once with or without notice or demand if any of these
events (“Default”) happens:
a. If you miss a payment under this Agreement or any other obligation
you owe us; or
b. If you violate any terms of this Agreement.
If you are in Default, we may terminate your Credit Card account, make no
more additional loans or advances, and require you to immediately repay the
entire unpaid balance of all amounts due on your Credit Card account,
including but not limited to all loan amounts, late charges and other charges
assessed but not paid, and all of the FINANCE CHARGES accrued but not
paid. If we terminate your Credit Card account, your obligation to repay the
amounts you already owe us would continue.
At our option, we may also take action short of terminating your Credit
Card account. If your required Minimum Payment (shown on your periodic
statement as “Minimum Payment Due”) is not received within 60 days of the
payment due date, we may increase your ANNUAL PERCENTAGE RATE for
Purchases and Cash Advances and any applicable promotional rates to a
.0493% Daily Periodic Rate and an ANNUAL PERCENTAGE RATE (“Penalty
APR”) of 18.00% fixed for the entire outstanding balance. We will send you
advance written notice that your ANNUAL PERCENTAGE RATE will be
increasing. Your payments under this Agreement, including the amount of the
FINANCE CHARGE, will increase as a result of the increase in your Daily
Periodic Rate and ANNUAL PERCENTAGE RATE, and any such increase in
your Daily Periodic Rate and ANNUAL PERCENTAGE RATE will be shown on
your periodic statement. We will reinstate your Daily Periodic Rate and
Page 3 of 5
Rev. Date 06/01/20

ANNUAL PERCENTAGE RATE to the rate set forth in this Agreement
once you have made six consecutive Minimum Payments on or before
the due date, starting with the first billing cycle after the Penalty APR is
imposed. If we take such lesser action initially, we reserve the right to
terminate your Credit Card account and accelerate all amounts due
under this Agreement regardless of whether any additional events have
occurred that would permit termination and acceleration.
18. Automated Terminal Services Involving Your Checking or
Savings Account. (Some of these services are only available if your
Credit Card account is linked to your checking or savings account with
us.)
a. Automated Terminals. You may use your Card in the following
automated terminals:
i. Our First Hawaiian automated teller machines (“First
Hawaiian ATM”).
ii. Any other automated teller machine (including any ATM we
may own besides First Hawaiian ATM) that is participating
in a network and accepts our Card (“Network ATM”) and
iii. Any point-of-sale terminal that accepts our Card (“POS
terminal”).
b. Services Available at an Automated Terminal.
i. You may use your Card at a First Hawaiian ATM to:
•
Withdraw cash from your checking or savings
account.
•
Make deposits to your checking or savings account.
•
Move funds between your checking and savings
accounts.
•
Get your checking, savings, or Credit Card account
balances. These balances may not include some
transactions recently made in your account.
•
Move funds from your Credit Card account to your
checking account.
•
Get a Cash Advance from your Credit Card account.
•
Get an interim statement printout of all posted
transactions on your checking account since the last
regular statement period up to the previous
business day.
ii. You may use your Card at any Network ATM to (some of
these services may not be available at all Network ATMs):
•
Withdraw cash from your checking or savings
account.
•
Get a Cash Advance from your Credit Card account.
•
Get your checking, savings, or Credit Card account
balances. These balances may not include some
transactions recently made in your account.
iii. You may use your Card at a POS terminal to purchase
certain merchandise. The amount of your purchase will
automatically be charged to your Credit Card account as a
Purchase.
c. Limits of Automated Terminal Services.
i. Withdrawals and Cash Advances. You may withdraw cash
or get a Cash Advance from a First Hawaiian ATM up to an
aggregate amount of $2,000 each calendar day, provided
that this amount does not exceed your available account
balance or Credit Limit. This amount may be less for cash
withdrawals and Cash Advances from Network ATMs.
You authorize us to charge any withdrawal by use of
your Card to your checking account or savings account as
though you had specifically signed a withdrawal
authorization. If there are insufficient funds in an account to
cover such a withdrawal, you agree that we may treat the
amount of such withdrawal either as a Cash Advance or as
an overdraft that you will be obligated to pay us on demand.
ii. Deposits. You may deposit up to $50,000 per transaction
using a First Hawaiian ATM. All deposits made with your
Card and placed in a First Hawaiian ATM are subject to
receipt by us on opening the First Hawaiian ATM and
verification of the items and the amounts.
iii. Moving Funds. You may move up to $50,000 per
transaction between your checking account and savings
account or from your Credit Card account to your checking
account using a First Hawaiian ATM.
d. Fees for Using Automated Terminal Services. The fees for
using certain automated terminal services are disclosed in the
paragraph of this Agreement called “Other Fees.”
e. Card and Secret Code Use. You are responsible for all
transactions in which you use your Card in an automated terminal, or
the use of the Card by anyone else who uses it with your permission.
Security in use of the Card is provided by the secret code, which we
will provide you, and the magnetically encoded stripe on the Card.
Please keep the Card safe and also protect the secret code. Use the
Card and the secret code as instructed at all times. Please notify us
of any mechanical or operating failure in connection with the use of
your Card. Do not permit anyone else to use your Card and do not
disclose your secret code or record it on the Card. The Card remains
the property of the Bank and can be revoked and repossessed at
any time. You must return it to us when asked.
f. Time of Transaction. All transactions are subject to the time
necessary for us to process them. Any transaction made on a
holiday or after regular banking hours may be held by us until the
next business day. Any transaction involving an account or matter
located at any other office of the Bank is subject to receipt at the
other office and the time necessary to process it.
g. Documentation of Transfers.

Private Banking Plat

i. Terminal Transfers. You can get a receipt at the time you make
any transfer at a First Hawaiian ATM, Network ATM, or POS
terminal.
ii. Periodic Statements. If you have a checking account, you will get
a monthly checking account statement. If you have arranged for
electronic access to your savings account, you will get a quarterly
savings account statement. However, if there are any transfers in
a particular month, you will get a savings statement that month,
as well.
h. In Case of Errors or Questions About Your Electronic Transfers
Involving Your Checking or Savings Account. Call or write to us at the
telephone number and address stated in the paragraph of this Agreement
called “Where to Call or Write” as soon as you can if you think your
statement or receipt is wrong or if you need more information about a
transfer listed on the statement or receipt. We must hear from you no later
than 60 days after we sent you the first statement on which the problem or
error appeared. When reporting an error or requesting more information:
i. Tell us your name and account number.
ii. Describe the error or the transfer you are unsure about, and
explain as clearly as you can why you believe it is an error or why
you need more information.
iii. Tell us the dollar amount of the suspected error.
If you tell us orally, we may require that you send us your complaint or
question in writing within 10 business days. We will determine whether an
error occurred within 10 business days after we hear from you and will
correct any error promptly.
We will tell you the results of our investigation within 10 business days
after we hear from you and will correct any error promptly. If we need more
time, however, we may take up to 45 days to investigate your complaint or
question. If we decide to do this, we will re-credit your account within 10
business days for the amount you think is in error, so that you will have the
use of the money during the time it takes us to complete our investigation.
If we ask you to put your complaint or question in writing and we do not
receive it within 10 business days, we may not re-credit your account.
We will tell you the results within three business days after completing
our investigation. If we determine that there was no error, we will send you
a written explanation. You may ask for copies of documents that we used
in our investigation.
i. Our Liability for Failure to Make Transfers. If we do not properly
complete a transfer to or from your account on time or in the correct
amount according to our agreement with you, we will be liable for your
losses or damages. However, there are some exceptions. We will not be
liable, for instance:
i. If, through no fault of ours, you do not have enough money in your
account to make the transfer;
ii. If the transfer would go over the credit limit on your overdraft line;
iii. If the automated terminal where you are making the transfer does
not have enough cash;
iv. If the automated terminal was not working properly and you knew
about the breakdown when you started the transfer;
v. If circumstances beyond our control (such as fire or flood) prevent
the transfer, despite reasonable precautions we have taken; or
vi. If your account does not contain enough money because we have
placed a hold on some items or the account is subject to legal
process.
vii. There may be other exceptions.
j. Disclosing Account Information to Third Parties. We may disclose
information to third parties about your account or the transfers you make:
i. Where it is necessary for completing transfers;
ii. In order to verify the existence and condition of your account for a
third party, such as a credit bureau or merchant;
iii. In order to comply with government agency or court orders; or
iv. If you give us your written permission.
19. ATM Safety. It is important to be aware of your surroundings when using
an ATM, especially at night. When you are using an ATM, you should secure
any cash you withdraw before leaving the ATM. If you need to use an ATM at
night, consider taking someone you know with you, and only use an ATM that
is well-lit and unobstructed from view. If anything appears to be suspicious, do
not use the ATM. Always call 911 in the event of an emergency or to report
any suspicious activity. If you have any questions or comments about the
safety of any of our ATMs, please call us on Oahu at (808) 844-4444 or 1-888844-4444 from the neighbor islands, Guam, the CNMI or Continental U.S.
20. Lost or Stolen Card; Your Liability for Unauthorized Use. Tell us at
once if you believe your Card has been lost or stolen. Telephoning is the best
way of keeping your possible losses down.
a. Unauthorized Use as Credit Card. You may be liable for the
unauthorized use of your Card as a credit card. You will not be liable for
unauthorized use of your Card as a credit card that occurs after you notify
us at the telephone number or address stated in the paragraph of this
Agreement called “Where to Call or Write,” orally or in writing, of loss, theft,
or possible unauthorized use. In any case, your liability for unauthorized
use of your Card as a credit card will not exceed $50.
b. Unauthorized Use in Automated Terminals.
i. If you tell us within two business days, you can lose no more than
$50 if someone used your Card at an automated terminal without
your permission.
ii. If you do not tell us within two business days after you learn of the
loss or theft of your Card and we can prove that if you had told us,
we could have stopped someone from using your Card at an
automated terminal without your permission, you could lose as
much as $500.
iii. If you do not notify us at all, you could lose all the money in your
checking and savings accounts plus your maximum overdraft line
of credit.
iv. Also, if your statement shows transfers that you did not make, tell
us at once. If you do not tell us within 60 days after the statement
was mailed to you, you may not get back any money you lost after

Page 4 of 5

Rev. Date 06/01/20

the 60 days if we can prove that we could have stopped
someone from taking the money if you had told us in time.
v. If a good reason (such as a long trip or a hospital stay) kept
you from telling us, we will extend the time periods.
21. Where to Call or Write. If you believe your Card has been lost or
stolen or that someone has transferred or may transfer money from your
account or otherwise use your Card or Credit Card account without your
permission, call: (808) 847-4444 on Oahu; neighbor islands, Guam,
Commonwealth of the Northern Mariana Islands (CNMI), or Continental
U.S call 1-800-342-2778 or write to: First Hawaiian Bank, BankCard
Security Department, P.O. Box 1959, Honolulu, Hawaii 96805.
22. Our Business Days. Our business days are Monday through
Friday, except for bank holidays.
23. Credit Investigation and Disclosure. You authorize us, both now
and in the future, to check your credit and employment history and to
release information about our credit experience with you in response to
legitimate credit inquiries. If you believe that we have incorrect
information or have reported inaccurate information about you to a credit
bureau, please call us at (808) 847-4444 (Oahu) or call toll-free at 1-800342-2778.
24. Security Interest. We have no security for any amounts which
become due under this Agreement unless you have given us a specific
security interest in connection with the Agreement, which is described on
the Security Agreement Supplement to this Agreement.
25. Collection. You promise to pay all collection costs, including,
without limitation, mailing and delivery charges, reasonable lawyers’ fees
and court costs at trial and on appeal, all as permitted by law.
26. If There are More Than One of You. Each of you individually, or all
of you together will be liable under this Agreement. We may collect from
or sue any one of you, or make any settlements or extensions with any
one of you, without giving up our rights against the other(s). You
understand that any one of you can make Purchases or get Cash
Advances under this Agreement which will be binding upon all of you.
27. No Waiver of Rights. If we choose to waive any of the terms or
conditions of this Agreement on a case-by-case basis, such as by not
declaring the entire balance due when the minimum monthly payment
has not been made on time, it does not mean that we have waived, or
given up, our right to exercise any of our rights or remedies under this
Agreement in the future. We are not required to use any particular kind
of demand or notice in order to collect amounts due to us under this
Agreement. No indulgence or acceptance by us of delinquent or partial
payments constitutes a waiver of our rights or of any provision of this

Agreement. No waiver of any existing default shall be deemed to waive any
subsequent default.
28. Change in Terms and Relationship. We can change, add to, delete or
otherwise modify the terms of this Agreement at any time in any way permitted
by law. We will send you advance notice of any change to this Agreement. If
the change affects use of your Card in an automated terminal, we will give you
advance notice of the change unless the change has to be made immediately
for security reasons. A notice of change we send you will describe any right
you have to opt out of a particular change, if any, and will describe whether a
particular change affects your outstanding balance. We do not have to send a
notice of the change if it favors you, such as by reducing rates, increasing the
maximum Credit Limit, etc.
You are provided special terms that are offered to you conditional upon
maintaining your Private Banking relationship. If you cease to be a Private
Banking customer, we may, in our sole discretion, convert your account to any
other type of non-Private Banking account that we may offer. Any such
conversion may cause the elimination of certain features and benefits. We will
provide you with notice of this change.
29. Canceling this Agreement. We have the right to cancel this Agreement
at any time by sending a notice to any one of you in writing. You also have the
same right to cancel this Agreement at any time by sending us a notice in
writing. If this Agreement is canceled by you or us, your obligation to repay
amounts you already owe under this Agreement would continue, and you must
return your Card to us.
30. Other Agreements. Use of your Card is subject to the terms of existing
regulations governing deposit accounts and other agreements and disclosures
for your checking, savings, and Credit Card accounts, and any future changes.
31. Governing Law. This Agreement will be governed by the laws of the State
of Hawaii, and, as applicable, federal law, regardless of where the Purchases
or Cash Advances are made, and you agree that any legal action that may be
filed by you elsewhere will be transferred to an appropriate court in Hawaii if
we decide that we want it to be transferred.
32. Monitoring/Recording Telephone Calls. Our supervisory personnel may
listen to and record your telephone calls to us for the purpose of monitoring
and improving the quality of service you receive.
33. Emergency Situation. In the event of an emergency situation beyond our
reasonable control, such as an "act of God," war, fire, or natural disaster,
services involving your account could be available only in a modified or
reduced form or could be entirely unavailable. Unless expressly prohibited by
applicable law, you agree that we will have no liability to you for such
modification, reduction, or unavailability of services caused by an emergency
situation.

YOUR BILLING RIGHTS: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
•

What To Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
First Hawaiian Bank
P.O. Box 1959
Honolulu, Hawaii 96805
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
•
Within 60 days after the error appeared on your statement.
•
At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.

If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of
the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases

You must notify us of any potential errors in writing. You may call us,
but if you do we are not required to investigate any potential errors and
you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•
We cannot try to collect the amount in question, or report you
as delinquent on that amount.
•
The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
•
If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.

Private Banking Plat

If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date payment
is due. We may then report you as delinquent if you do not pay the
amount we think you owe.

If you are dissatisfied with the goods or services that you have purchased with
your credit card and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or
services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
First Hawaiian Bank
P.O. Box 1959
Honolulu, Hawaii 96805
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

Page 5 of 5

Rev. Date 06/01/20

